AUDIT OF ABANDONED ASSETS HELD BY STATES’
      UNCLAIMED PROPERTY AGENCIES

           Audit Report No. A99-038
               August 27, 1999




           OFFICE OF AUDITS

    OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation
1201 W. Peachtree St., NE, Suite 1800                                                        Office of Audits
Atlanta, Georgia 30309                                                           Office of Inspector General




   DATE:           August 27, 1999

   TO:             James G. Thompson, Deputy Director
                   Division of Finance
                   Field Finance Center

                   A. J. Felton, Deputy Director
                   Division of Resolutions and Receiverships
                   Dallas Field Operations Branch


   FROM:           Carl S. Mays
                   Regional Director

   SUBJECT: Audit of Abandoned Assets Held by States’ Unclaimed Property Agencies (Audit
            Report No. A99-038)

   This report presents the results of the Office of Inspector General’s (OIG) audit of abandoned
   assets held by states’ unclaimed property agencies. The audit addressed whether states were
   holding unclaimed assets belonging to the Federal Deposit Insurance Corporation (FDIC) or its
   receiverships and the FDIC’s efforts to identify and recover such assets. During the audit, we
   worked with the FDIC’s Division of Finance (DOF) and Division of Resolutions and
   Receiverships (DRR) to improve the effectiveness of the FDIC’s ongoing efforts to identify and
   recover assets belonging to the Corporation. We developed financial institution and subsidiary
   databases and purchased states’ unclaimed property databases, which we gave to DOF and DRR.


   BACKGROUND

   Abandoned or unclaimed assets are any tangible assets that have remained unclaimed by the
   owner for a certain number of years. Laws vary among states regarding the number of years that
   assets must be dormant or inactive to be considered abandoned. Abandoned assets include items
   such as checking and savings accounts, cashier’s checks, insurance benefits and premium refunds,
   safe deposit box contents, security and utility deposit refunds, common and preferred stocks, and
   cash dividends.

   States’ laws require banks, insurance companies, utilities, and other businesses to remit unclaimed
   assets to the unclaimed property agency in the state of the asset owner’s last known address. If
   there is not an owner address associated with the asset, then the holder must remit it
to the state in which the business holding the asset is incorporated. The custodial nature of
unclaimed property law obligates each state to maintain unclaimed assets for future claims by the
lawful owners or their beneficiaries.

Many financial institutions that failed during the banking and savings and loan crises of the 1980s
owned checking accounts at other institutions, stock dividends, utility company refunds, and other
assets. When those failed institutions were closed or otherwise resolved, their assets held by
others were not always recovered. The holders of those assets were obligated to remit them to
the appropriate state unclaimed property agencies if the assets remained unclaimed for specified
periods of time, which varied among states. Similarly, assets of subsidiaries of failed institutions
held by others were not recovered when the subsidiaries were dissolved. Likewise, the FDIC and
the former Resolution Trust Corporation (RTC) and Federal Savings and Loan Insurance
Corporation (FSLIC) offices also may not have recovered assets held by others. The FDIC, as
successor to the FSLIC and RTC, assumed management of the assets of those former agencies,
including their failed financial institution receiverships. Accordingly, the FDIC is entitled to
recover any unclaimed assets belonging to those agencies, their receiverships, or subsidiaries of
their receiverships.

Federal agencies have a responsibility to identify and recover unclaimed assets held by others that
belong to the federal government. The Debt Collection Improvement Act of 1996 requires federal
agencies to have procedures for recovering unclaimed assets. The Act also requires that the
United States Department of Treasury approve an agency’s procedures before the agency
contracts with private individuals or firms to locate and recover assets held by state governments
or private entities. The Department of Treasury issued regulations in November 1998 requiring
government agencies to make an in-house effort to identify and recover unclaimed assets held by
state governments before incurring additional costs to recover those assets.


OBJECTIVE, SCOPE, AND METHODOLOGY

The audit objective was to determine whether states’ unclaimed property agencies were holding
assets belonging to the FDIC, RTC, FSLIC, or receiverships of failed financial institutions or their
subsidiaries and whether the FDIC was taking steps to identify and recover such assets.

To accomplish our objective, we compiled comprehensive lists of failed banks and savings and
loan associations and their receiverships and subsidiaries. We sorted the lists by state and
financial institution number (FIN) and matched subsidiaries with their parent institutions. Initially,
we performed cursory searches of 24 states’ Internet web sites containing unclaimed property
information and found that 23 of the states were holding assets belonging to the FDIC, RTC, or
                                                                           1
FSLIC or receiverships of failed, federally insured financial institutions. In addition to the
24 Internet web sites that we reviewed, we contacted 2 states—Alabama and Georgia—that did
not have Internet web sites and found that those 2 states were also holding unclaimed FDIC and
receivership assets.

1
 All subsequent references to unclaimed property belonging to the FDIC or its receiverships include properties assumed by
the FDIC from the RTC or FSLIC, their receiverships, or subsidiaries of their receiverships.


                                                           2
Because most of the Internet web sites did not include information on the type or dollar value of
assets held in the unclaimed accounts, we quantified the dollar value of unclaimed assets in two
states. Specifically, we purchased unclaimed property databases from the states of California and
Florida. We selected those states because they were two of the larger states in terms of the
number of failed financial institutions. We searched the California and Florida unclaimed property
databases for assets belonging to the FDIC or its receiverships.

We identified two FDIC divisions—DOF and DRR—which were involved in efforts to identify
and recover unclaimed assets. We discussed the nature and scope of those efforts with the DOF
and DRR staff involved. We also reviewed the report and supporting workpapers on a review of
the finders fee program that DRR’s Office of Internal Review conducted in the FDIC’s Dallas,
Texas, office.

We obtained an understanding of DRR’s and DOF’s efforts to identify and recover unclaimed
assets but did not evaluate DRR’s or DOF’s internal controls in those areas. The OIG concluded
that the audit objective could be met more efficiently by conducting substantive tests rather than
placing reliance on internal controls. The OIG conducted the audit from November 1998 through
May 1999 in accordance with generally accepted government auditing standards.


RESULTS OF AUDIT

Of the 26 states that we reviewed, 25 were holding assets belonging to the FDIC. Specifically,
for 2—California and Florida—of those 25 states, we identified 3,945 accounts totaling about
$3.3 million belonging to the FDIC or its receiverships that were being held by those states’
unclaimed property agencies. In addition, we identified 33 other accounts being held by those
2 states consisting of securities, contents of safe deposit boxes, or unidentified assets for which
we did not determine the value. We also did not determine the value of the assets belonging to
the FDIC or its receiverships that the 23 other states were holding. Additionally, we worked with
DRR and DOF to improve the effectiveness of their in-house programs for identifying and
recovering unclaimed assets.


FDIC and Receivership Assets Are Being Held by States

As shown in appendix I, of the 26 states we reviewed, 25 were holding unclaimed assets
belonging to the FDIC or its receiverships. Our review of the unclaimed assets databases for the
states of California and Florida identified 3,945 accounts valued at about $3.3 million that belong
to the FDIC or its receiverships. Table 1 shows the number of unclaimed accounts and value of
assets in those accounts that we identified in California and Florida.




                                                 3
Table 1: Unclaimed FDIC Assets Held by California and Florida
                                                     Number of Accounts                 Value of Accounts
              Owner of Account                    California          Florida       California          Florida
    Receiverships of failed institutions             1,798             1,083        $1,198,391          $758,023
    Subsidiaries of receiverships                        468             509            394,120          403,528
    FDIC                                                  16               14            12,039               22,864
    RTC                                                   19               25            10,780               24,049
    FSLIC                                                    6                7            5,574               4,745
    Subtotal                                         2,307             1,638        $1,620,904a        $1,213,209b
                                                                                                   c                   d
    Accrued interest                                     –                –             447,823                   0
    Total                                            2,307             1,638        $2,068,727a        $1,213,209b
a
 Does not include the value of 12 accounts containing securities and 7 accounts containing the contents of safe
deposit boxes.
b
    Does not contain the value of 14 accounts containing unidentified assets.
c
    Assumes that the assets have been held an average of 5 years at 5-percent interest compounded annually.
d
    Florida does not pay interest on unclaimed assets.

Source: OIG analysis of the California and Florida unclaimed property databases.



The California and Florida databases contained 6.9 million and 1.4 million accounts, respectively.
 Those accounts included both individual and business accounts. The California database was on
a compact disk with a search capability. The Florida database, however, was on three magnetic
tapes. With the assistance of Division of Information Resources Management (DIRM) personnel
in Atlanta, we downloaded the Florida database from the magnetic tapes to an Access database
that we could search. DIRM personnel also segregated the business accounts to facilitate
matching those accounts with the comprehensive lists of failed financial institutions and
subsidiaries that we prepared, thereby reducing the number of accounts to be searched from about
1.4 million to 226,000.

Matching the names of failed institutions and subsidiaries required extra care because they were
recorded in the states’ records under various names and abbreviations. For example, California
Federal Savings and Loan was listed 25 different ways on the California database. Some of the
variations used were California FSLA, Cal Fed Sav & Loan, Cal Fed S & L, California Federal
S&L, and Calfed Savings and Loan. In addition, an institution in one state may have unclaimed
accounts in another state. For example, Centrust (a Florida institution) had several unclaimed
accounts in California. Similarly, Texas, California, and New Jersey institutions had unclaimed
accounts in Florida. In addition, we identified subsidiary accounts in the state where a subsidiary
operated as well as the state where a subsidiary’s parent institution was located. Finally, during



                                                              4
our review of the California database, we noted that new accounts were being added on a
continuing basis. Therefore, it is important to carefully review each state’s database with those
situations in mind.

In addition to California and Florida, 23 of the 24 other states that we reviewed were holding
unclaimed assets belonging to the FDIC and its receiverships. For example, our cursory review of
New York’s database found more than 700 accounts that belong to failed institution receiverships
and their subsidiaries. However, we did not attempt to identify all of the accounts or determine
the value of the accounts identified in those states. Overall, for 25 of the 26 states we reviewed,
we found unclaimed assets that belong to the FDIC and its receiverships.


FDIC Efforts to Recover Unclaimed Assets

DOF and DRR were both operating programs for identifying unclaimed assets. DRR was
operating a finders fee program, which relied on private individuals or firms to identify unclaimed
assets in return for fees that ranged from 10 percent to 40 percent of the amount recovered. The
finders fee program prohibited the payment of finders fees if the FDIC already knew of the
existence of the assets identified. The finders fee program was started in 1993 under the RTC and
was adopted by the FDIC in December 1995 as a best-practice initiative. From inception through
December 31, 1998, the RTC and FDIC recovered approximately $9 million of assets and paid
fees totaling about $1.7 million, or 19 percent of the amount recovered. According to DRR
personnel, although some of the recoveries were from states’ unclaimed property agencies, most
were from other sources such as local taxing authorities and bankruptcy courts. DOF was also
operating a program to identify and recover assets belonging to failed financial institution
receiverships. DOF performed asset searches in-house and, accordingly, did not pay any fees to
private individuals or firms. As of March 1999, DOF had recovered about $25,000 from the state
of Maryland and had claims pending in other states.

The OIG believes that states’ unclaimed property agencies are known sources of potential asset
recoveries and, accordingly, the FDIC should not pay finders fees for assets held by those
agencies that private individuals or firms identify for recovery. During December 1998 and
February 1999 meetings with DRR and DOF officials, the OIG questioned whether fees should be
paid to private entities to recover assets held by states’ unclaimed property agencies. The DRR
and DOF officials agreed that the finders fee program should exclude FDIC assets held by states’
unclaimed property agencies. Accordingly, private individuals and firms would not be paid for
identifying those assets. As of July 31, 1999, DRR and DOF were working on a memorandum of
understanding concerning the responsibilities of each division for identifying and recovering
unclaimed assets held by states’ unclaimed property agencies. Under the draft memorandum of
understanding, DOF will be primarily responsible for identifying and recovering assets held by
states’ unclaimed property agencies.

During our meetings with DOF and DRR officials, the OIG offered to assist DOF in identifying
and recovering unclaimed assets in other states by explaining the methodology we used to identify
unclaimed FDIC assets in the California and Florida databases. DOF staff from the Dallas office



                                                 5
responded to our offer, and we met with them on February 10, 1999, and March 22 and 23, 1999.
In addition, on March 30, 1999, the OIG provided DOF personnel with its

     •   failed financial institutions and subsidiaries database;

     •   unclaimed property databases purchased from California and Florida;

     •   unclaimed accounts inventory identified in California, Florida, and New York;

     •   list of other states where unclaimed assets were identified;

     •   claims procedures and forms; and

     •   names of contacts in states’ unclaimed property agencies.


CONCLUSIONS AND RECOMMENDATIONS

States’ unclaimed property agencies are holding millions of dollars in assets belonging to the
FDIC and its receiverships. Specifically, the states of California and Florida were holding about
$3.3 million in unclaimed assets belonging to the FDIC and its receiverships. The FDIC should
obtain and review each state’s unclaimed property database and file claims for assets belonging to
the FDIC or its receiverships and subsidiaries. Also, since unclaimed assets are being remitted to
states’ unclaimed property agencies on a continuing basis, DOF should obtain and review states’
unclaimed property databases on a periodic basis. Finally, we believe that the FDIC should
remove assets held by states’ unclaimed property agencies from the finders fee program operated
by DRR and make DOF responsible for recovering those assets. By doing so, the FDIC can save
additional funds by not paying finders fees to private individuals and firms for those assets.

Accordingly, the OIG recommends that the Deputy Director, DOF, Field Finance Center, and the
Deputy Director, DRR, Dallas Field Operations Branch:

     (1) Finalize the memorandum of understanding to discontinue payments to private
         individuals or firms for identifying assets held by states’ unclaimed property agencies
         and make DOF responsible for recovering those assets.

The OIG also recommends that the Deputy Director, DOF, Field Finance Center, take the
following actions:

     (2) Recover the $3.3 million (funds put to better use) in unclaimed assets belonging to the
         FDIC and its receiverships from the states of California and Florida.

     (3) Identify and recover unclaimed assets belonging to the FDIC and its receiverships held
         by all other states’ unclaimed property agencies.




                                                    6
     (4) Implement procedures to periodically contact all states’ unclaimed property agencies to
         recover assets belonging to the FDIC and its receiverships that are turned over to those
         agencies in the future.


CORPORATION COMMENTS AND OIG EVALUATION

On August 9, 1999, the Deputy Director, DOF, Field Finance Center, and the Deputy Director,
DRR, Dallas Field Operations Branch, provided a joint written response to a draft of this report.
The Deputy Directors’ response agreed with the recommendations and, coupled with subsequent
correspondence regarding expected completion dates for corrective actions, provided the
requisites for a management decision on each of the four recommendations. The Deputy
Directors’ response is not summarized here because the actions planned or completed are
identical to those recommended. The response is presented as appendix II to this report.

Based on the audit work, the OIG will report funds put to better use of $3.3 million in its
Semiannual Report to the Congress.




                                                 7
                                                                                                 APPENDIX I

                STATE UNCLAIMED PROPERTY DATABASES REVIEWED

           Unclaimed Property Agency                                  FDIC Property Identified
                    Alabama                                                         Yes
                    Arkansas                                                        Yes
                    California                                                      Yes
                    Colorado                                                        Yes
                    Delaware                                                        No
                    Florida                                                         Yes
                    Georgia                                                         Yes
                    Idaho                                                           Yes
                    Indiana                                                         Yes
                    Kansas                                                          Yes
                    Kentucky                                                        Yes
                    Louisiana                                                       Yes
                    Maryland                                                        Yes
                    Mississippi                                                     Yes
                    Nebraska                                                        Yes
                    Nevada                                                          Yes
                    New Jersey                                                      Yes
                    New York                                                        Yes
                    North Carolina                                                  Yes
                    North Dakota                                                    Yes
                    Ohio                                                            Yes
                    Rhode Island                                                    Yes
                    Texas                                                           Yes
                    Vermont                                                         Yes
                    Washington                                                      Yes
                    Wisconsin                                                       Yes

Source:OIG analysis of data on Internet web sites of states’ unclaimed property agencies except for Alabama and Georgia.
Data for Alabama and Georgia were obtained directly from their unclaimed property agencies.




                                                        8
                                                                                   APPENDIX II




                                                    August 9, 1999


MEMORANDUM TO:                   Carl S. Mays
                                 Regional Director
                                 OIG Atlanta




FROM:                            James G. Thompson, Deputy Director
                                 Division of Finance
                                 Field Finance Center



                                 A.J. Felton, Deputy Director
                                 Division of Resolutions & Receiverships
                                 Dallas Field Operations Branch

SUBJECT:                         Audit of Abandoned Property (Audit No. 98-107)


We appreciate the information OIG has provided to assist us in the research and recovery of unclaimed and
abandoned property belonging to FDIC/RTC Receiverships. In response to your draft report dated July 8,
1999, DOF-FFC and DRR have taken the following actions.

OIG's recommendations and DOF/DRR's Responses:

(1) Finalize the memorandum of understanding to discontinue payments to private individuals
    or firms for identifying assets held by states' unclaimed property agencies and make DOF
    responsible for recovering those assets.

   • DOF and DRR met regarding the Finders Fee Program, and as a result of this meeting, a MOU
     (Memorandum of Understanding) is being executed by A. J. Felton, DRR-Dallas, Jon Karlson,
     DRR-Hartford, Joseph Fanelli, DRR-Washington, and James Thompson, DOF-Dallas. The MOU
     identifies DOF BACU assuming the responsibility for research and recovery of abandoned and
     unclaimed funds belonging to FDIC/RTC. The key elements of the MOU are that DOF will
     continue its role of controlling all funds belonging to the corporation, receiverships, subsidiaries; and
     that DRR will discontinue any active pursuit of abandoned property. DRR will not issue any new
     Letters of Engagement to finders prior to getting DOF's concurrence. (MOU signed by August 31,
     1999)



                                                9
   • A letter to participants in the Finders Fee Program (those who had signed LOE "Letters of
     Engagement") has been drafted. The letter will inform participants that the FDIC will no longer
     issue letters of engagement for funds escheated to states. The list of participants was developed
     from an issued LOEs provided by DRR’s Kathy Coleman. In addition a letter will be sent to states
     advising them of the transfer of the unclaimed/abandoned property recovery program to DOF-
     BACU. (Letter to be mailed by September 30, 1999)

(2) Recover the $3.3 million (funds put to better use) in unclaimed assets belonging to the FDIC and
    its receiverships from the states of California and Florida.

   • DOF’s Bank Account Control Unit (BACU) is extracting claim information out of the files provided
     by OIG. To date we have identified and prepared claim forms for 1,017 accounts totaling
     approximately $613,000 from California, and 1,146 accounts totaling approximately $738,000 from
     Florida. We will continue to extract information from these files and reconcile our final total with
     the $3.3 million figure identified by OIG. (Ongoing work requiring in-depth research)

   • DOF is reviewing a copy of the legal opinion furnished to DRR regarding the indemnification of
     states with respect to claims erroneously filed against Abandoned/Unclaimed Property. BACU will
     develop a case requesting authority to grant indemnification to states so that escheated funds
     belonging to the FDIC/RTC can be claimed. (Case to Board by September 30, 1999)


(3) Identify and recover unclaimed assets belonging to the FDIC its receiverships held by all other
    states' unclaimed property agencies.

   • DOF has developed Access database tables to track and monitor all identified accounts that the
     corporation has an interest in. In addition, additional tables are maintained for researching and
     tracking activities pertaining to escheated funds recoveries. The database table (FDIC-Rcvr/Subs)
     provides information related to a particular state, bank, or subsidiary. This table contains a listing of
     all the failed financial institutions and subsidiaries on record and can be sorted by states and FIN
     numbers. (The aggregate number of records in this table is 9,185). Our claims table currently has
     3522 identified records with a gross amount of $2,067,000.00 from 35 different states, which will be
                                                                                   th
     filed upon the signing of the MOU by all parties. In addition, as of July 27 , BACU has recovered
     $100,000 from claims filed on behalf of FDIC/RTC with various states. This database will provide
     tracking of all claims by state, the dates claims were filed, received, and deposited. As part of the
     database development we have developed several reports for management of the recovery program.
      (Ongoing process that is a primary focus of the BACU unit)

   • The following pending claim forms were turned over to Cash Management BACU, by DRR Finders
     Fee Administrator, Kathy Coleman

          State of Michigan            5 items                     $ 1,147.52
          State of Texas               29 items                    $ 9,543.44
          State of Ohio                263 items                   $45,502.58

          Total                                                    $56,193.54




                                               10
   • BACU originated inquiries to the 50 states and received the following responses from various states
     regarding unclaimed/abandoned property for failed FDIC/RTC Receiverships:

          Washington               27 properties       $24,785.33
          Nebraska                 4 properties        $ 559.09
          Arkansas                 8 properties        $ 1,667.69
          So. Carolina             18 properties       $ 2,565.34
          Maine                    8 properties        $ 1,996.35
          Rhode Island             13 properties       $20,310.41
          Wisconsin                1 property          $    57.04
          Nevada                   19 properties       $ 2,466.54

          Total                                        $54,407.79

   • BACU will track all recoveries in FIMS account #374101 using newly established (Mid Code) of
     [ESHEAT]. This code was established for tracking monies received from different states unclaimed
     properties offices. DOF will maintain the supporting database indefinitely due to possible claims for
     funds erroneously claimed by FDIC. The possibility of any claim being filed is considered to be
     remote.

   • DOF’s Bank Account Control Unit (BACU) has received the OIG's spreadsheet which lists a
     number of failed financial institutions, their subsidiaries in California, and 2,036 potential unclaimed
     assets totaling $2,013,034, including $435,814 in estimated interest earned. 212 claim forms from
     California for a total sum of $110,535.39 had been submitted. Also DOF was informed by OIG of
     approximately 1,000 accounts in the state of Florida with potential abandoned property belonging to
     the FDIC/RTC. This data will be reviewed and incorporated into our databases where appropriate.
      The OIG prepared databases of failed Banks, Savings and Loan Associations and related
     Subsidiaries. The spreadsheets OIG developed for Subsidiaries contained 5,388 records and has
     been converted from Excel to Access for ease in researching information from the respective states.


(4) Implement procedures to periodically contact all states' unclaimed property agencies to recover
    assets belonging to the FDIC and its receiverships that are turned over to those agencies in the
    future.

   • Procedures are being drafted to facilitate the process of periodically contacting various states for
     future discoveries and recovery of funds. BACU will routinely research the National Association of
     Unclaimed Property Administrator database, located on Internet. (Database is mostly updated
     semiannually). Information will also be gathered by contacting Property Administrators in each state
     to obtain their data media (CD-ROM, diskettes, magnetic tapes, hardcopies etc). (Procedures to be
     developed by September 30, 1999)

   • BACU's search for unclaimed property is not limited to the recovery of escheated funds. The unit
      also pursues recovery of funds from various entities (law firms, title companies, etc) that have held
      money on behalf of FDIC/RTC. In the period from April 1998 to present BACU has identified and
      recovered a total of $2,475,000 through various research efforts.




                                               11
                                                                                                                                       APPENDIX III


                                         MANAGEMENT RESPONSES TO RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider the FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation
     •   the specific corrective actions already taken, if applicable;
     •   corrective actions to be taken together with the expected completion dates for their implementation; and
     •   documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for
any disagreement. In the case of questioned costs, the amount that the FDIC plans to disallow must be included in management’s response.
If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.
This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The
information for management decisions is based on management's written response to our report.

                                                                                     Expected     Documentation That                     Management
    Rec.                                                                            Completion    Will Confirm Final        Monetary      Decision:
   Number               Corrective Action: Taken or Planned / Status                   Date             Action              Benefits      Yes or No
      1         The Deputy Director, DOF, Field Finance Center, and the Deputy       09/30/99    Copies of MOU and            $-0-          Yes
                Director, DRR, Dallas Field Operations Branch, stated that a                     letters to finders fee
                memorandum of understanding (MOU) would be executed, which                       program participants and
                would give DOF the continuing role of controlling all funds                      states’ unclaimed
                belonging to the Corporation and its receiverships and                           property agencies.
                subsidiaries. The Deputy Directors said that under the MOU, DRR
                will discontinue any active pursuit of abandoned property and the
                FDIC will no longer issue letters of engagement under the finders
                fee program for recovery of funds escheated to states. They added
                that current finders fee program participants and states’
                unclaimed property agencies would be sent letters informing them
                of these changes.




                                                                             12
                                                                                 Expected     Documentation That                        Management
 Rec.                                                                           Completion    Will Confirm Final         Monetary        Decision:
Number            Corrective Action: Taken or Planned / Status                     Date             Action               Benefits        Yes or No

  2      The Deputy Director, DOF, Field Finance Center, and the Deputy          03/31/00    Copies of checks or wire   $3.3 million       Yes
         Director, DRR, Dallas Field Operations Branch, stated that DOF’s                    transfers for payment of   (funds put to
         Bank Account Control Unit would extract information from the                        claims filed.               better use)
         files provided by the OIG and file claims for the $3.3 million
         identified.
  3      The Deputy Director, DOF, Field Finance Center, and the Deputy          Ongoing     Copies of checks or wire       $-0-           Yes
         Director, DRR, Dallas Field Operations Branch, stated that DOF          process     transfers for payment of
         had developed ACCESS database tables to research, track, and                        claims filed.
         monitor all accounts that the Corporation has an interest in,
         including escheated funds recoveries. The Deputy Directors said
         that as of August 9, 1999, DOF had identified 3,522 claims
         totaling $2,067,000 in 35 different states.
  4      The Deputy Director, DOF, Field Finance Center, and the Deputy          09/30/99    Copy of procedures.            $-0-           Yes
         Director, DRR, Dallas Field Operations Branch, stated that
         procedures were being drafted to periodically contact states for the
         identification and recovery of the Corporation’s funds escheated to
         states in the future. The Deputy Directors stated that the
         procedures would include routinely searching internet web sites
         for unclaimed property belonging to the Corporation and
         obtaining and searching data media (CD-ROM, diskettes,
         magnetic tapes, and hardcopies) from states’ unclaimed property
         agencies.




                                                                         13
